                Voucher Audit of the Treasury Information
                 Processing Support Services Contract –
                           TIRNO-00-D-00014

                                     April 2005

                       Reference Number: 2005-10-076




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           April 15, 2005


      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Voucher Audit of the Treasury Information
                             Processing Support Services Contract – TIRNO-00-D-00014
                             (Audit # 200410027)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Treasury Information Processing Support Services Contract – TIRNO-00-D-00014. The
      overall objective of this review was to determine whether selected vouchers submitted
      and paid under contract TIRNO-00-D-00014 were appropriate and in accordance with
      the contract’s terms and conditions.
      Contract expenditures represent a significant outlay of IRS funds. The Treasury
      Inspector General for Tax Administration has made a commitment to perform audits of
      these expenditures. We initiated this audit to determine whether the vouchers
      submitted by the contractor and paid by the IRS were accurate, supported, and
      allowable.
      Our review resulted in the identification of questionable charges of $745. Specifically,
      these charges consisted of $223 in unsupported costs and $676 in unreasonable costs,
      less $154 in inaccurately recorded costs. While we recognize that the identified
      questionable charges are relatively small in relation to the total amounts reimbursed to
      the contractor, we believe the Contracting Officer (CO) should determine whether
      recovery actions against the contractor are warranted for these amounts.
      As part of this audit, we also examined contract correspondence files and interviewed
      the CO and Contracting Officer’s Technical Representatives to determine whether the
      contractor’s performance was satisfactory. Based on these limited auditing procedures,
      nothing came to our attention that would lead us to believe there were problems with
      any of the deliverables associated with the task orders included in our tests.
                                           2

Management’s Response: We did not have any specific recommendations to offer as a
result of our review. In providing comments to this report, IRS management stated any
questioned costs will be resolved by the CO as part of the IRS’ established procedures
for task order/contract closeout.
Opinions expressed in this report pertain only to the task orders and vouchers included
in our random and judgmental samples.
Copies of this report are also being sent to the IRS managers affected by the report
findings. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organization Programs), at (202) 622-8500.
   Voucher Audit of the Treasury Information Processing Support Services Contract –
                                   TIRNO-00-D-00014




                                               Table of Contents


Background ................................................................................................. Page 1
Questionable Contract Charges and Voucher Verification
Process ....................................................................................................... Page 2
Acceptable Existence of Contract Deliverables........................................... Page 4
Appendix I – Detailed Objective, Scope, and Methodology......................... Page 6
Appendix II – Major Contributors to This Report ......................................... Page 8
Appendix III – Report Distribution List ......................................................... Page 9
    Voucher Audit of the Treasury Information Processing Support Services Contract –
                                    TIRNO-00-D-00014

                                  In June 2000, the Internal Revenue Service (IRS) awarded
Background
                                  the indefinite-delivery, indefinite-quantity contract as a part
                                  of the Treasury Information Processing Support Services
                                  (TIPSS) contracts, the first of which was awarded in 1994.
                                  The objective of the June 2000 contract was to provide a
                                  continuation of the broad range of information
                                  technology-related services initiated by the original TIPSS
                                  contracts. The IRS awarded task orders against the contract
                                  on either a cost-plus-fixed-fee basis or a firm fixed-price
                                  basis.
                                  The contract was awarded for a 1-year base period through
                                  May 31, 2001, with 4 option years that would extend the
                                  contract through May 31, 2005. The IRS exercised all the
                                  options available under the contract. According to the IRS
                                  Request Tracking System,1 as of August 13, 2004, the IRS
                                  had awarded 132 task orders, with a total value not to
                                  exceed approximately $334 million, and had recorded
                                  approximately $261 million in transactions against these
                                  task orders.
                                  Because contract expenditures represent a significant outlay
                                  of IRS funds, the Treasury Inspector General for Tax
                                  Administration (TIGTA) made a commitment to perform
                                  audits of these expenditures. This audit was designed to
                                  determine whether amounts paid by the IRS under this
                                  contract were accurate, supported, and allowable through a
                                  review of contractor vouchers and supporting
                                  documentation.
                                  This review was performed in the Office of Procurement
                                  within the Office of Agency-Wide Shared Services in
                                  Oxon Hill, Maryland, during the period August 2004
                                  through February 2005. Opinions expressed in this report
                                  pertain only to the task orders and vouchers included in our
                                  random and judgmental samples.
                                  The audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit


                                  1
                                   The Request Tracking System allows IRS personnel to prepare,
                                  approve, fund, and track requests for the delivery of goods and services.
                                  The System also allows for electronic acceptance of items delivered and
                                  provides an electronic interface with the Integrated Financial System for
                                  payment processing.
                                                                                                   Page 1
      Voucher Audit of the Treasury Information Processing Support Services Contract –
                                      TIRNO-00-D-00014

                                    objective, scope, and methodology is presented in
                                    Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    We examined supporting documentation obtained from the
Questionable Contract Charges
                                    IRS Office of Procurement, as well as documentation
and Voucher Verification Process
                                    received directly from the contractor, for a sample of
                                    13 vouchers. The vouchers were selected using a
                                    combination of random and judgmental sampling methods
                                    (see Appendix I for details). The sampled vouchers related
                                    to 8 task orders with award amounts totaling approximately
                                    $29 million and transactions of approximately $26 million.
                                    The 13 vouchers had processing dates from February 2002
                                    to March 2004 and involved approximately $2.9 million in
                                    payments by the IRS.
                                    The primary expenses claimed by the contractor were
                                    employee compensation, indirect costs (i.e., fringe benefits,
                                    overhead, general and administrative expenses, and cost of
                                    money for capitalized assets), and to a lesser extent, other
                                    direct costs, such as travel, copying and reproduction, and
                                    communications.
                                    Questionable contract charges
                                    Based on our audit tests, we identified questionable charges
                                    of $745, as shown in Table 1. We provided details of these
                                    charges to the contractor and the IRS.
                                                    Table 1: Schedule of Questioned Charges
                                                      Questioned Activity                 Questioned
                                                                                           Charges
                                        Unsupported other direct costs                             $223
                                        Unreasonable travel expenses                               $676
                                        Inaccurately recorded expenses                            ($154)
                                        Total                                                      $745
                                    Source: TIGTA analysis of 13 vouchers submitted to the IRS.

                                    The Federal Acquisition Regulation (FAR)2 stipulates that a
                                    contractor is responsible for accounting for costs
                                    appropriately and for maintaining records, including
                                    supporting documentation, adequate to demonstrate that

                                    2
                                        48 C.F.R. pt 1-53 (2002).
                                                                                                  Page 2
Voucher Audit of the Treasury Information Processing Support Services Contract –
                                TIRNO-00-D-00014

                              costs claimed have been incurred. The FAR also provides
                              that costs shall be allowed to the extent they are reasonable,
                              allocable, and allowable under the FAR.
                              While we recognize that the identified questionable charges
                              are relatively small in relation to the total amounts
                              reimbursed to the contractor, we believe the Contracting
                              Officer (CO) should determine whether recovery actions
                              against the contractor are warranted for these amounts. In
                              providing comments to this report, IRS management stated
                              any questioned costs will be resolved by the CO as part of
                              the IRS’ established procedures for task order/contract
                              closeout.
                              Voucher verification process
                              The CO is the primary responsible official regarding
                              contract administration. The CO signs the contract on
                              behalf of the Federal Government and bears legal
                              responsibility for the contract. The Contracting Officer’s
                              Technical Representative (COTR) is the designated program
                              office official. The COTR’s responsibilities include
                              monitoring the contractor’s performance in reference to
                              contract requirements and reporting deviations to the CO.
                              Further, the Department of the Treasury Contracting
                              Officer’s Technical Representative’s Handbook, Part IV
                              states, in part, that COTRs are responsible for reviewing and
                              approving invoices and vouchers on contracts. It also states
                              that the COTR will receive instructions regarding
                              involvement in the review and approval of invoices and
                              vouchers from the CO. Attachment E of the Handbook
                              states that COTRs are responsible for reviewing and signing
                              off on the invoices, attesting to their accuracy.
                              The CO advised that the COTRs’ voucher verification
                              process for this contract was based upon reliance on the
                              judgment of the Defense Contract Audit Agency (DCAA).
                              The DCAA deemed the contractor eligible for direct billing,
                              which allowed the contractor to submit its vouchers directly
                              to Federal Government disbursing offices without extensive
                              supporting documentation. Contractors eligible for direct
                              billing are certified by the DCAA as being financially sound
                              and having low- to moderate-risk billing systems.


                                                                                      Page 3
      Voucher Audit of the Treasury Information Processing Support Services Contract –
                                      TIRNO-00-D-00014

                                    The COTRs we interviewed generally reviewed hours
                                    worked and travel expenses for reasonableness. The
                                    COTRs were usually, but not always, directly involved in
                                    the day-to-day oversight of the work done by the contractor.
                                    When not directly involved, the COTRs communicated
                                    extensively with program personnel who did work directly
                                    with the contractor to verify that the hours claimed by the
                                    contractor were reasonable.
                                    We did not identify any type of verification performed by
                                    the COTRs of actual hours worked by direct means, such as
                                    a review of contractor-provided payroll or related payment
                                    records. During our audit, we identified vouchers in which
                                    employees were often paid at more than one hourly rate
                                    during a month. However, when asked, the COTRs could
                                    not explain why this was the case. We verified that these
                                    charges were accurate and supported, based on the
                                    contractor’s description of its billing methodology.
                                    The COTRs stated they did receive and review details of
                                    other direct costs during the early years of the contract.
                                    However, pursuant to Office of Procurement instructions
                                    dated June 20, 2002, the contractor was no longer required
                                    to provide support for other direct costs (i.e., the IRS
                                    accepted the DCAA’s opinion that the contractor can use a
                                    direct billing process). Some COTRs stated they partially
                                    compensated for this revised process by requiring email
                                    notification or a list of all planned travel and reviewing
                                    these amounts on submitted vouchers for reasonableness.
                                    As a result, there was no consistency among COTRs as to
                                    the procedures they used to review other direct costs on
                                    vouchers.
                                    We did not identify a significant amount of questioned costs
                                    on the vouchers we reviewed, notwithstanding the
                                    inconsistent or incomplete voucher verification process
                                    described above. We will continue to include a review of
                                    the IRS’ voucher verification process in future contract
                                    voucher audits and, if warranted, recommend improvements
                                    to the process.
                                    We examined contract correspondence files and interviewed
Acceptable Existence of Contract
                                    COs and COTRs to determine whether the contractor’s
Deliverables
                                    performance was satisfactory for five task orders related to
                                    our sampled transactions. The task orders involved
                                                                                         Page 4
Voucher Audit of the Treasury Information Processing Support Services Contract –
                                TIRNO-00-D-00014

                              performing nonpersonal information processing support
                              services in the areas of Information Systems,
                              Telecommunications Support, Organizational/Management,
                              and Operational Support. These services were performed
                              for various IRS projects such as the:
                                  •   Wage and Investment Business Unit Stakeholder
                                      Partnerships, Education, and Communication
                                      Management Information System.
                                  •   Small Business/Self-Employed Business Unit
                                      Examination Re-Engineering.
                                  •   Communications and Liaison Division Interactive
                                      Operational Directory.
                                  •   Criminal Investigation Division Automation and
                                      Integration Support.
                              Based on our limited auditing procedures, nothing came to
                              our attention that would lead us to believe there were
                              problems with any of the deliverables associated with the
                              task orders included in our tests.




                                                                                   Page 5
      Voucher Audit of the Treasury Information Processing Support Services Contract –
                                      TIRNO-00-D-00014

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under contract TIRNO-00-D-00014 were appropriate and in accordance with the contract’s
terms and conditions. Specifically, we:
I.       Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
         certifying payment to the contractor.
         A. Interviewed the Senior Contracting Officer and nine Contracting Officer’s Technical
            Representatives to confirm our understanding of the voucher verification process.
         B. Documented voucher processing risks including accuracy, supportability, and
            allowability of voucher charges and concluded as to the overall control environment.
         C. Interviewed IRS personnel involved in the administration of the contract to identify
            any concerns that existed regarding the contractor, its billing practices, or any specific
            invoices.
II.      Verified whether voucher charges submitted by the contractor and paid by the IRS were
         accurate, supported, and allowable.
         A. Used a sample selection method that involved two stages and various assumptions
            concerning the universe of Request Tracking System1 recorded transactions from
            which to sample. First, to ensure the selection of material transactions, we eliminated
            all transactions under $50,000 from a total universe of 1,521 transactions to establish
            our initial sampling universe of 897 transactions as of August 13, 2004. From this
            universe, we randomly selected 20 transactions for initial review. Based on this
            initial review, we eliminated 14 transactions because they either related to a
            fixed-price contract or were processed prior to 2002. We eliminated the fixed-price
            task order transactions due to their low risk to the Federal Government. We
            eliminated transactions processed prior to 2002 to ensure supporting documentation
            would be readily available. The elimination also afforded us the opportunity to
            identify current cost-reimbursable internal control problems and the ability to discuss
            adverse conditions with IRS employees and managers who would be knowledgeable
            of the current voucher verification process. In our second stage, based on auditor
            judgment, we judgmentally selected an additional seven transactions, all of which
            represented cost-reimbursable task orders that were processed after 2001. This
            method of sample selection resulted in a total sample of 13 transactions that are

1
 The Request Tracking System allows IRS personnel to prepare, approve, fund, and track requests for the delivery
of goods and services. The System also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System for payment processing.
                                                                                                         Page 6
       Voucher Audit of the Treasury Information Processing Support Services Contract –
                                       TIRNO-00-D-00014

             synonymous with paid contract vouchers. We believed this sampling method would
             provide sufficient evidence with which to accomplish our audit objective and would
             result in acceptable management corrective action without the need for a precise
             projection of sample results.
             NOTE: The 1,521 transactions, recorded from the initiation of the contract to
             August 13, 2004, involved 132 task orders with award amounts of approximately
             $334 million and acceptance for payment amounts of approximately $261 million.
             Our initial sampling universe of 897 transactions, which eliminated all transactions
             under $50,000, involved 101 task orders with acceptance for payment amounts of
             approximately $249 million. After elimination of transactions processed prior to
             2002, the population of transactions was 654 and involved 70 task orders with
             acceptance for payment amounts of approximately $134 million. The final sample of
             13 transactions had processing dates from February 2002 to March 2004 and involved
             approximately $2.9 million in payments by the IRS. The sample of 13 transactions
             involved 8 task orders with a total award amount of approximately $29 million,
             $26 million of which was vouchered by the contractor and accepted for payment by
             the IRS.
          B. Obtained supporting documentation for the vouchers in the sample from the IRS and
             contractor and performed the following tests:
             1. Verified the mathematical accuracy of the voucher and supporting documentation.
             2. Traced voucher charges to supporting documentation.
             3. Verified whether voucher charges were actually paid by the contractor through
                examination of payroll records and extracts from the contractor’s financial
                records.
             4. Verified whether voucher charges were allowable under the terms and conditions
                of the contract.
III.      Verified whether there was acceptable existence of deliverables, as stipulated in the
          contract, for five task orders related to our sampled transactions through interviews and
          reviews of project files.




                                                                                              Page 7
   Voucher Audit of the Treasury Information Processing Support Services Contract –
                                   TIRNO-00-D-00014

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Robert W. Beel, Lead Auditor
Bobbie Draudt, Senior Auditor
James S. Mills Jr., Senior Auditor
Richard Louden, Auditor




                                                                                      Page 8
   Voucher Audit of the Treasury Information Processing Support Services Contract –
                                   TIRNO-00-D-00014

                                                                         Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                               Page 9
